2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs a a
& Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-251, 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, Attorney General of California,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, Attorney General of California,
Respondent.

CERTIFICATE OF COMPLIANCE 7
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE INSTITUTE FOR JUSTICE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
5769 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of March, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

@ GENERAL NOTARY-State of Nebraska Ze 2 h i,
RENEE J, GOSS 9. ( herr
f. My Comm. Exp. September 5, 2023

Affiant 40592

      

 

Notary Public
